Nos. 20-542, 20-574
IN THE SUPREME COURT OF THE UNITED STATES
_________________

REPUBLICAN PARTY OF PENNSYLVANIA,
Petitioner,
v.
KATHY BOOCKVAR, SECRETARY OF THE COMMONWEALTH OF
PENNSYLVANIA, ET AL.,
Respondents.
_________________

JOSEPH B. SCARNATI III, ET AL.,
Petitioners,
v.
PENNSYLVANIA DEMOCRATIC PARTY, ET AL.,
Respondents.
_________________

On Petitions For Writs Of Certiorari
To The Supreme Court Of Pennsylvania
_________________

RESPONSE OF THE PENNSYLVANIA DEMOCRATIC PARTY
RESPONDENTS TO MOTION OF DONALD J. TRUMP FOR PRESIDENT,
INC. FOR LEAVE TO INTERVENE AS PETITIONER
________

Clifford B. Levine
Alex M. Lacey
Dentons Cohen & Grigsby P.C.
625 Liberty Avenue
Pittsburgh, PA 15222-3152
(412) 297-4900
Lazar M. Palnick
1216 Heberton Street
Pittsburgh, PA 15206
(412) 661-3633

Donald B. Verrilli, Jr.
Counsel of Record
Elaine J. Goldenberg
Ginger D. Anders
Rachel G. Miller-Ziegler
Jeremy S. Kreisberg
Munger, Tolles & Olson LLP
601 Massachusetts Ave. NW, Ste. 500E
Washington, DC 20001-5369
(202) 220-1100
Donald.Verrilli@mto.com

Kevin Greenberg
Teresa A. Reed Dippo
A. Michael Pratt
Munger, Tolles & Olson LLP
Adam Roseman
560 Mission Street, 27th Floor
Greenberg Traurig, LLP
San Francisco, CA 94105
1717 Arch Street, Suite 400
(415) 512-4000
Philadelphia, PA 19103
(215) 988-7818
Counsel for the Pennsylvania Democratic Party Respondents

RESPONSE
Donald J. Trump for President, Inc. (“movant”) has moved for leave to
intervene in these cases. Because this Court may well not need to hear and decide
these cases, it would be premature for this Court to rule on the motion to intervene.
Moreover, movant’s contention that the “time has come” for this Court to review these
cases, see Motion of Donald J. Trump for President, Inc. (“Motion”) 1, is incorrect.
There is no reason for the Court to expedite consideration of the pending petitions,
let alone to grant certiorari at this time. Should the Court nonetheless wish to rule
on the motion to intervene now—despite the absence of any reason to think that
deciding these cases will be necessary—the Pennsylvania Democratic Party
Respondents do not oppose this Court’s granting movant leave to intervene.
1.

Before Election Day, this Court twice denied efforts to seek immediate

review in these cases.

On September 28, petitioners—the Republican Party of

Pennsylvania (“RPP”) and two Pennsylvania state legislators—asked this Court to
stay the Pennsylvania Supreme Court’s decision. See Nos. 20A53, 20A54. RPP also
asked the Court to construe its stay motion as a petition for certiorari and grant
review. See 20A54 RPP Application 3 & n.1, 19. On October 19, the Court denied
the stay applications, indicating that it would not disturb Pennsylvania’s voting
procedures before Election Day. See Scarnati v. Boockvar, No. 20A53 (Oct. 19, 2020);
Republican Party of Pa. v. Boockvar, No. 20A54 (Oct. 19, 2020). On October 23, RPP
filed a petition for certiorari, together with a motion to expedite. See No. 20-542. The
Court denied the request to accelerate consideration of the petition, thus declining to
take the case up on the merits before Election Day. See Republican Party of Pa. v.
1

Boockvar, No. 20-542 (Oct. 28, 2020). On October 27, 2020, the state legislator
petitioners filed a petition for certiorari, without seeking expedition. See Scarnati v.
Pennsylvania Democratic Party, No. 20-574. Respondents’ briefs in opposition have
not yet been filed; they are currently due on November 25 in No. 20-542 and on
November 30 in No. 20-574.
There is no reason for the Court to reverse course now, mere days after Election
Day.

If anything, the need for immediate review has diminished, because any

interest in providing clear pre-election guidance has evaporated.

And no new

circumstances require this Court to take any precipitous action.

The petitions

challenge the counting of ballots received between 8:00 p.m. on November 3 and 5:00
p.m. on November 6. That window of time has not closed, and it is far from clear how
many ballots will be received during it. Even if there were a legal basis for refusing
to count any such ballots (and there is not), no reason exists to assume that the
number of ballots received in that window would be large enough to be decisive in the
races for President and House of Representatives.

Movant asserts that “[t]he

Pennsylvania Supreme Court’s decision may well dictate who will become the next
President,” Motion 4, but that is not remotely clear at this juncture. Rather, that
assertion—and hence any possible basis for expedition or for this Court’s immediate
review—depends on numerous contingencies and facts that movant cannot, and does
not even try to, establish.
2.

It is particularly clear that the Court need not take any action at present

because the Secretary of the Commonwealth has issued guidance directing county

2

boards of elections to segregate ballots received between 8:00 p.m. on November 3
and 5:00 p.m. on November 6. See Letter from Pennsylvania Attorney General, No.
20-542 (Oct. 28, 2020); see also Republican Party of Pennsylvania v. Boockvar, slip
op. 3, No. 20-542 (Oct. 28, 2020) (statement of Alito, J.). Given that procedure, which
ensures that the ballots that petitioners challenge are not commingled with other
ballots, there is no need for this Court to intervene prematurely while state officials
continue to count votes as required under Pennsylvania law.
CONCLUSION
For the foregoing reasons, although the Pennsylvania Democratic Party
Respondents do not oppose the motion to intervene, it would be premature to rule on
that motion now. And there is certainly no basis for the Court to expedite these cases
or to grant certiorari at this time.

3

Dated: November 5, 2020

Respectfully submitted,
/s/ Donald B. Verrilli, Jr.
Donald B. Verrilli, Jr.
Counsel of Record
Elaine J. Goldenberg
Ginger D. Anders
Rachel G. Miller-Ziegler
Jeremy S. Kreisberg
Munger, Tolles & Olson LLP
601 Massachusetts Ave. NW, Ste. 500E
Washington, DC 20001-5369
(202) 220-1100
Donald.Verrilli@mto.com

Clifford B. Levine
Alex M. Lacey
Dentons Cohen & Grigsby P.C.
625 Liberty Avenue
Pittsburgh, PA 15222-3152
(412) 297-4900
Lazar M. Palnick
1216 Heberton Street
Pittsburgh, PA 15206
(412) 661-3633

Teresa A. Reed Dippo
Munger, Tolles & Olson LLP
560 Mission Street, 27th Floor
San Francisco, CA 94105
(415) 512-4000

Kevin Greenberg
A. Michael Pratt
Adam Roseman
Greenberg Traurig, LLP
1717 Arch Street, Suite 400
Philadelphia, PA 19103
(215) 988-7818

Counsel for Respondents Pennsylvania Democratic Party, Nilofer Nina Ahmad,
Danilo Burgos, Austin Davis, Dwight Evans, Isabella Fitzgerald, Edward Gainey,
Manuel M. Guzman, Jr., Jordan A. Harris, Arthur Haywood, Malcolm Kenyatta,
Patty H. Kim, Stephen Kinsey, Peter Schweyer, Sharif Street, and Anthony H.
Williams

4

